                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: 108030020                                                                             Page 1 of 1



         We conducted this investigation jointly with two federal DIGs. 1 We requested and reviewed the
         general ledger and source documents associated with an NSF award? Based on our review of
         those records, we requested infonnation for four additional NSF awards. 3 We identified
         unallowable and unsupported costs, and detennined EBC: (1) did not discretely account for NSF
         grant funds; (2) did not segregate unallowable expenses from the project account; and (3) drew
         down funds in excess of actual expenditures. The other DIGs requested and reviewed documents
         associated with its respective awards and identified similar findings.

         We referred the matter to the USAO Southern District of New York. In June 2010, a Complaint4
         and Stipulation and Order of SettlementS were filed in U.S. District Court. The settlement
         included a 5-year compliance plan, the return of $950,000, and forfeiture and de-obligation of
         13% of current federal award funds from three agencies. The joint recovery totaled $1,965,046,
         of which $1,176,795 is associated with NSF awards.

                   Accordingly, this case is closed.




         I National Endowment for the Arts (NEA) and National Endowment for the Humanities (NEH)
         2 ESI-0540279, "CyberchaseSeason 5"
         3 ESI-0206195, "Cyberchase Season 2"; ESI-0307763, "Cyberchase Season 3"; ESI-0407065, "Cyberchase Season
         4"; and DRL-0638962, "Cyberchase Season 6"
         4 Tab 1
         5Tab2




NSF OIG Form 2 (11/02)
/I
                          "
                      r ~ (I,nry
                               -'·~1fV'I"'1
     PREET BH~UV.Jfk~ ~'cid 1~~Lt 

     United States Attorney for the 

     Southern District ofNew York 

     By:. LARA K. ESHKENAZI 

               sARAHE. LIGHT 

     Assistant United States Attorneys 

     86 Chambers Street - 3rd Floor 

                                                                                           ro)[E~ [EJ WI [E ~
                                                                                           rGl 1ZO~J~
     New York, New York 10007                            .. •.
     Tel. No.: (212) 637-2758, 2774
     Fax No.: (212) 637-2702                                                                           f;
     UNITED STATES DISTRICT COURT                                                              U.S.D.C, S.D. N.Y.
     SOUTHERN DISTRICT OF NEW YORK                                                                CASHJJE.RS
     ---------------------------------:..-----------"--:..-----------""·.x .
     UNITED STATES OF AMERICA, 

                                                                               COMPLAINT 

                                   Plaintiff, 


                         v;                                                     lOCiv. _ _ __

     EDUCATIONAL BROADCASTING 

     CORPORATION and WNET.ORG, ~ r                                             . ECF Case' 


                                   Defendants..
     ------------------------------------------------------------ x


                         Plaintiff United States of America ("United States"); by its attorney Preet Bharara,

     United States Attorney for the Southern District of New York, on behalf ofthe National Science

     Foundation Office of Inspector General (,'NSF OIG"), the National Endowment for the Arts

     Office ofInspector General ("NEA OIG") and the National Endowment for the Humanities

     Office of Inspector General (''NEH OIG"), for its complaint against defendants herein alle'ges as

     follows:

                                                  NATURE OF THE ACTION

                         1.        This is a civil action brought by the United States against Educational

     Btoadcasting Corporation ("EBC") under the False Claims Act, 31 U.S.C. §§ 3729 et seq. (the
"False Claims Act"), to recover damages sustained by, and penalties owed to, the United States

as the result of EBC having knowingly presented or caused to be presented to the United States

false claims for federal grant money to NSF, NEA and NEH. In addition, the United States seeks

injunctive relief against defendants EBC and WNET.ORG.

        2.     At issue are five NSF grants (totaling over $9,,000,000), two NEH grants

(totaling over $1,000,000) and two NEA grants (totaling over $3,000,000), pursuant to which

EBC received funding between September 2001 and January 2008. '

        3.     The United. States also asserts claims. based on the same conduct under the

common law for fraud, unjust enrichment, and payment under mistake in fact.

                                 JURISDICTION AND VENUE'

        4.     This Court has jurisdiction over the claims brought under the False Claims Act

pursuant to 31 U.S.C. § 3730(a) and 28 U.S.C. §§ 1331, 1345, and over the remaining claims

pursuant to 28 U.S.C. § 1345.

        5.     Venue lies in this District pursuant to 31 U.S.C. § 3732(a), and 29 U.S.C. §§

1391(b) and 139'1(c), because EBC is located and does business in this District, and many of the

acts complained of herein took place in this District.

                                            PARTIES

        6.     Piaintiff is the United States of America on behalf of its agencies the NSF, NEA

andNEH.

        7.     Defendant EBC is a New York Regents chartered educational corporation with

offices located in the Southern District of New York at 450 West 33rd Street, New York, New

York.


                                                 2
          · 8.     EBC, through its employees, submitted proposals to NSF, NEA and NEH to

obtain federal grants to fund the production of various television programs.

           9.      Defendant WNET.ORG, also a New York Regents chartered educational

corporation, was organized on April 15, 2008. Upon information and belief; WNET.ORG is the

parent and sole member ofEBC; which is a wholly-owned subsidiary ofWNET.ORG. Defendant

WNET.ORG is a necessary party for purposes of obtaining complete relief.

                                                FACTS
                                                        '.-                              ,
           10.     The United States, through NSF, NEA and NEH, awards grants for the purpose of

funding projects of certain not::'for-profit organizations.

           11.     Between September 2001 and January 2008, NSF, NEA and NEll awarded grants

to EBC pursuant to the United States' authority as provided in 42 U.S.C. § 1862,20 U.S.C. §§

951-954a, and 2 C.F.R. Parts 215 and 230.

           12.     Pursuant to 2 C.F.R. Parts 215 and 230, recipients of federal grant money may

use such funds only for expenses that are allowable and allocable, and they must support the

spending of federal grant money by maintaining sufficient source documentation. See 2 C.F.R.

Parts 215 and 230.                                                                                  I
           13. .   Between January 2004 and September 2007, the United States conducted four

audits ofEBC's accounting system and determined that EBC failed to track costs by federal
                                                                                         ,.
award and to provide sufficient detail to identify unallowable costs. The United States infon:ned

EBC of the results of each audit, but EBC failed to address the concerns raised by the United

States.

                                           The NSF Grants


                                                   3
       14.    . Between June 2002 and September 2007, NSF awarded EBC five grants (ESI­

0206195, ESI-0307763, ESI-0407065, ESI 0540279, and DRL-0638962) for the production of

five seasons (seasons two through six) of the television series Cyberchase (the "NSF grants").

       15.     From about June 2002 to the present, EBC has failed to implement an·accounting

system to track and document co~ts covered by the NSF grants as required by 2 C.F.R. Parts 215

and 230 ..

       16.     From about 2002 to the present, EBC inappropriately charged NSF approximately

$939,128 by using money from the NSF grants to cover linallowable and unsupported costs as

defined in 2 C.F.R. Parts 215 and 230.

       17.     Despite EBC's failure to properly account for unallowable and unsupported costs,

from about 2002 through 2008, EBC submitted twenty six (26) Federal Cash Transaction Reports

to the United States certifying that all disbursements "have been made for the purposes and

conditions ... of the [NSF] awards."   E~ch   Federal Cash Transaction Report was certified as

being accurate by Thomas A. Conway, who, at all times relevant to this action, held the titles of

Vice President and Chief Financial Officer of EBC.

                                         The NEB Grants

       18.·    Between September 2001 and September 2005, NEH awarded two grants to EBC

(ON-50495-05 and ON-26277-01) for the production oftwo television programs: Audubon:

Drawn from Nature and The America"! Novel (the "NEH grants").

       19.     From about 2001 to the present, EBC has faBed to implement an accounting

system to track and document costs covered by the NEH grants.

       20.     From about 2006 to the present, EBC inappropriately charged NEH approximately


                                                  4

$320,835 by using money from the NEH grants to cover unallowable and unsupported costs as

defined in 2 C.F.R. Parts 215 and 230.

        21.   . Despite EBC' s failure to properly account for unallowable and unsupported costs,

from about 2006 through 2008, EBC submitted fourteen (14) Federal Cash Transactions Reports,

ten (10) Requests for Reimbursement, and three (3) Financiai Status Reports to the United States

certifying that all disbursements were made in accordance with the conditions of the NEH

awards. Each Federal Cash Transactions Report, Request for Reimbursement and Financial

Status Report was certified as being accurate by Thomas A. Conway.

                                         The NEA Grants

        22.    Between May 2005 and June 2008, NEA awarded two grants to EBC (05­

. 3446-7128 and 05-3446:'7111) for the production of two television series: American Masters and

Great Performances (the ''NEA grants").

        23.    From about 2005 to the present, EBC has failed to implement an accounting

system to track and document costs covered by the NEA grants.

        24.    From about 2005 to the present, EBC inappropriately charged NEA approximately

$235,814 by using money from the NEA grants to cover unallowable and unsupported costs as

defined in 2 C.F.R. Parts.215 and 230.

        24.    Despite EBC's failure to properly account for unallowable and unsupported costs,

from about 2007 through 2008, EBC submitted four (4) Requests for Advance or Reimbursement

and one Financial Status Report to the United States certifying that all disbursements were made

in accordance with the conditions of the NEA awards~ Each Request for Advance or

Reimbursement was certified as being. accurate by Thomas A. Conway.


                                                5
                                          WNET.ORG 


        25.     Upon information and belief, WNET.ORG, rather than EBC, will apply for all

grants on a going-forward basis. Once WNET.ORG receives a grant, WNET.ORG will disperse

grant moneys to one of its production subsidiaries (including, but not limited to,EBC) to carry

out production of the program in question. As the grant recipient, WNET.ORG will have

responsibility for maintaining appropriate records, overseeing adherence to proper accounting

treatment and financial reporting.

                                         FIRST CLAIM

                              Violations of the False Claims Act 

                                   (31 U.S.C. § 3729(a)(I» 

                             Presenting False Claims for Payment 



        26.     The United States incorporates by reference paragraphs 1 through 25 above as if

fully set forth herein.

        27.     The United States seeks relief against EBC under Section 3729(a)(1) of the False

Claims Act, 31 U.S.C. § 3729(a)(1).

        28.    . As set forth above, EBC knowingly or acting with deliberate ignorance or with

reckless disregard for the truth, presented, or caused to be presented, to an officer, employee or

agent of the United States, false and fraudulent claims for payment or approval in connection

withNSF grants ES1-0206195, ES1-0307763, ES1-0407065, ES1 0540279, and DRL-0638962,

NEH grants GN-50495-05 and GN-26277-01, and NEA grants 05-3446-7128 and 05-3446-7111,

and all money paid as a result of those grants.

        29.     The United States paid EBC because of the false claims submitted by EBC.



                                                  6
                                                                                              "
          30.     By reason ofEBC's false claims, the United States has been damaged in a 


  substantial amount to be determined at trial. 


                                           SECOND CLAIM 


                                  Violation of the False Claims Act· 

                                      {31 U.S.C. § 3729(a)(2))
                                       Use of False Statements

          31.     The United States incorporates by reference paragraphs 1 through 25 above as if

  fully set forth herein.

          32.     The United States seeks relief against EBC under Section 3729(a)(2) ofthe False

  ClaimsAct, 31 U.S.C. § 3729(a)(2).

          33.     As set forth above, EBC knowingly or acting in deliberate ignorance or in reckless

  disregard for the trUth, made, used, and caused to be made and used, false records and statements

  in order to get false or fraudulent claims paid or approved by the United States in connection

 with NSF grants ESI-0206195, ESI-0307763, ESI-0407065, ESI 0540279, and DRL-0638962,

 NEH grants GN-50495-05 and GN-26277-01,and NEA grants 05-3446-7128 and 05-3446-7111,

.. and all money paid as a result of those grants.

          34.     The United States paidsuch false or fraudulent claims because ofthe acts and 


  conduct ofEBC. 


          35.     By reason ofEBC's false claims, the United States has been damaged in a 


 substantial amount to be determined at trial. 


                                            TIllRD CLAIM 


                                         Common Law Fraud 


          36.     The United States incorporates by reference paragraphs 1 through 25 above as if


                                                     7

 fully set forth herein.

            37.     EBC made material misrepresentations of fact to the United States with·

 knowledge of their falsity, or in reckless disregard of their truth, in connection with NSF grants

 ESI-0206195, £SI:'(}307763 , ESI-0407065, ESI 0540279, and DRL-0638962, NEH grants GN­

 50495 05 and GN-26277-01, and NEA grants 05-3446-7128 and 05-3446-7111, and all money
        8




 paid ~s a result of those grants.

            38.     EBC intended !pat the United States rely upon the accuracy ofthe false 


 representations referred to above . 


        . 39.       The United States made substantial payments of money pursuant to false claims

 EBC submitted and allowed,to be submitted on its behalf to NSF, NEH and NEA, in justifiable

 reliance upon EBC's false representations.

            40.     EBC's actions caused the United States to be damaged in a substantial amount to

 be determined at trial. The United States win continue to be damaged prospectively should EBC

 and/or WNET.ORG maintain such conduct going forward.

                                           FOURTH CLAIM· 


                                           Unjust Enrichment 


            41.     The United States incorporates by reference paragraphs 1 through 25 above as.if

. fully set forth herein.

            42. .   By reason of payments made by the United States to EBC, based on the

 submission of false claims in connection with NSF grants ESI-0206195, ESI-0307763, ESI­

 0407065, ESI 0540279, and DRL-0638962, NEH grants GN-50495-05 and GN-26277-01, and

 NEA grants 05-3446-7128 and 05-3446-7111, and all money paid as a result of those grant


                                                     8
                                                             ....
applications, EBC was unjustly enriched. The circUmstances ofEBC's receipt of these payments
                                                                                                 , ~." I

are such that, in equity and good conscience, it should not retain these payments, the amount of
                                                  r ..   '   i'
which is to be detennined at trial.

                                            FIFTH CLAIM

                                   Payment Under Mistake of Fact

        43.        The United States incorporates by reference paragraphs 1 through 25 above as if

fully set forth herem.

        44.        The United States seeks relief against EBC to recover monies paid by mistake in

fact in connection with NSF grants ESI-0206195, ESI-0307763, ESI-0407065, ESI 0540279, and

DRL-0638962,\NEH grants GN-50495-05 and GN-26277-01, and NEAgrants 05-3446-7128 and

05-3446-7111, and all money paid as a result of those grants.

        45.        The United States paid EBC based on ciaims it submitted under the erroneous

belief that EBC was entitled to payment of such furids. This erroneous belief was material to the

United States' decision to pay EBC. In such circumstances, the United States' payment of

federal funds to EBC in connection with NSF grants ESI-0206195, ESI-0307763, ESI-P407065,

ESI 0540279, and DRL-0638962, NEH grants GN-50495-05 and GN-26277-01, and NEA .grants

05:-3446-7128 and 05-3446-7111 was by mistake and not authorized.

        46.        Because of these payments by mistake, EBC has received monies to which it

is not entitled.

        47.        By reason of the foregoing, the United States was damaged in a substantial

amount to be detennined at trial.




                                                         9
              WHEREFORE, plaintiff, the United States requests that judgment be entered

in its favor and against defendants EBC and/or WNET.ORG as follows:

            '. (a)   On the First and Second Claims for Relief (Violations of the False Claims

                     Act, 31 U.S.C. § 3729(a)(I) and (2)), for treble the United States'

                     damages, in an amount to be determined attrial, plus an $11,000 penalty

                     for each false claim presented;

              (b)    On the First and Second Claims for Relief, an award of costs pursuant to

                     31 U.S.C. § 3729(a};

              (c)    On the Third Claim for Relief (Common Law Fraud), in an amount to be

                     determined at trial, together with costs and interest;

              (d)    On the Fourth Claim for Relief (Unjust Enrichment), in an amount to be

                     detemrined at trial, together with costs and interest; .

              (e)    On the Fifth Claim for Relief (Payment Under Mistake of Fact), in an

                     amount to be determined at trial, together with costs and interest;

              (f)    Awarding such further relief, including but not limited to injunctive relief,

                     as is proper.




                                               10 

..   ,.




          Dated: New York, New York
                 June Q., 2010
                                            PREET BHARARA
                                            United States Attorney for the
                                            Southern District of New York


                                                               -!if 1-:
                                            Attorney for the United States of Americ~

                                      By:   A~·
                                            LARA K. ESHKEN
                                                          (                         .
                                            SARAH E. LIGHT
                                            Assistant United States Attorneys
                                            86 Chambers Street -- 3rd Floor
                                            New York, New York 10007
                                            Tel. No.: (212) 637-2758, 2774
                                            Fax No.: (212) 637-2702
                                            lara.eshkenazi@USdoj.gov, sarahJight@usdoj.gov




                                              11 

                                                                          USDSSDNY
                                                                          DOCUMENT
                                                                          ELECTRONICALLY FILED
                                                                          DOC#: ____~~~~-
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
                                                                                             6
                                                                          DATE FILED: -Ii"" -, 0
----------------------------------~-------------------------   )(
UNITED STATES OF AMERICA,
                                                                        STIPULA TION AND ORDER OF
                           Plaintiff,                                   SETTLEMENT AND DISMISSAL

                  v.                                            .   .
                                                                        10 Civ. 4664 (PKC)
EDUCA TIONAL BROADCASTING
CORPORATION and WNET.ORG,                                               ECF Case

                           Defendants.

------------------------------------------------------~-----   )(




                                                 I.    PARTIES 


        This Stipulation and Order of Settlement and Dismissal. ("Stipulation and Order") is, 


el1tered into by the United States of America (the "United States" or the "Government")'by its

attorney Preet Bharara, United States Attorney for the Southern District of New York, on behalf·

of the National Science Foundation OfficeofInspector General ("NSF OIG"), the National

Endowment for the ArtsOffice ofInspector General ("NEA OIG"), and the National Endowment

for the Humanities Office ofInspector General ("NEH OIG"), and the Educational Broadcasting

Corporation, ("EBC") and WNET.ORG (collectively, "Defendants"), through their authorized

representati ves.

                                               II.    PREAMBLE

         As a preamble to this Stipulation and Order, the parties agree to the following:

        ,A.       EBC is a New York Regents chartered educational corporation with offices

located in New York City. EBC produces and broadcasts educational public television programs.

         B.       WNET.ORG, also a New York Regents chartered educational corporation, was'
organized on April 15, 2008. WNET.ORG is the parent and sole member ofEBC, which is a

wholly-owned subsidiary ofWNET.ORG.

       C.      Between June 2002 and September 2007, the National Science Foundation

("NSF") awarded EBC five grants (ESI-0206195, ESI-0307763, ESI-0407065, ESI-0540279, and

DRL- 0638962) for the production of five seasons (seasons two through six) of the television

series Cyberchase (the "NSF grants"). Between September 2001 and September 2005, the

National Endowment for the Humanities ("NEH") awarded two grants to EBC (GN-50495-05

and GN-26277-01) for the production of two television programs: Audubon: Drawnfrom Nature

and The American Novel (the "NEH grants"). Between July 2005 and January 2008, the National

Endowment for the Arts ("NEA") awarded two grants to EBC (05-3446-7128 and 05-3446-7111)

for the production of two television series: American Masters and Great

Performances (the "NEA grants'').

       D.    . The United States contends that during the time periods referenced· in Paragraph C

above, in connection with EBC's submission of requests for reimbursement for certain expenses,

in violation of the False Claims Act, 31 U.S.C. §§ 3729 - 3733 (the "False Claims Act"), EBC

knowingly presented, or in deliberate ignorance of or in reckless disregard for the truth presented,

or caused to be presented, false or fraudulent claims to the United States for payment, and/or

submitted false statements or information to the United States to get a false or fraudulent claim

paid, as more specifically set forth in the United States' Complaint (the "Complaint").

       E.      Alternatively, the United States' contends that it has certain civil claims against

EBC based on common law or equitable theories of fraud and mistake of fact for engaging in the



                                               . 2

conduct described in Paragraphs C and D above and as described in more detail in the

Complaint. The conduct outlined in this Preamble and the Complaint shall be referred to as the
                       -'   .                                                                  ,   I'

"Covered Conduct." The United States also contends that it has claims for certain injunctive and

prospective relief against Defendants.

       F.              Defendants hereby appear and consent to the entry ofthis Stipulation and Order,

but do not admit to any wrongdoing or liability as alleged in the Complaint.

       G.              To avoid the delay, expense, inconvenience and uncertainty of protracted

litigation, the parties desire to reach a full and final settlement and compromise of the claims that

the United States asserts in the Complaint in this action.

       NOW, THEREFORE, the Government, EBC and WNET.ORG, in consideration of the

mutual promises, obligations, undertakings and commitments set forth in this Stipulation, do
             f'   ,.




hereby covenant and agree as follows:

        I.             The parties consent to this Court's exercise of subject matter jurisdiction over this

action and personal jurisdiction over each of them.

       2.              Within three (3) business days after entry of this Stipulation by the Court, EBC

shall pay to the United States, in full compromise and satisfaction of the allegations set forth in

the Complaint, the sum of nine hundred fifty thousand dollars ($950,000) (the "Settlement .

Amount"). This Settlement Amount shall constitute a debt due and owing upon entry of this

Stipulation and Order by the Court and is to be discharged by payment to the United States. If

EBC fails to pay the Settlement Amount when due, a judgment (in the form attached hereto as

Exhibit A) shall be entered against EBC and in favor of the United States for the sum of nine



                                                         3

hundred fifty thousand dollars ($950,000).

         3.     EBC shall make payment of the Settlement Amount by electronic funds transfer

pursuant to written instructions t6 be provided by the United States Attorney's Office, Southern

District of New York.

         4.     EBC shall relinquish and forego thirteen percent (13%) of the reimbursements set

forth in the Unreimbursed Expenses Incurred with respect to each of the gt;ants as described in

the chart attached hereto as Exhibit B (the "Exhibit B Grants"), shall apply for reimbursement of

the Unreimbursed Expenses Adjusted at 87%, and NSF, NEA, and NEH shall de-obligate the

relinquished Exhibit B Grant funds in accordance with Exhibit B. Such relinquishment by EBC

and de-obligation by NSF, NEA andNEH shall not affect the remaining Award Funds Available

for Subsequent Expenses for each of the Exhibit B Grants as reflected on Exhibit B. In

consideration ofEBC's relinquishment of claims for reimbursement for such portion ofthe

expenses previously incurred with respect to the Exhibit B grants, the United States (on behalf of

itselfand its agencies, departments, officers, employees, servants and agents) shall not assert

violations by EBC with .respect to reimbursement of such expenditures under the False Claims

Actor under the common law or equitable theories of fraud or mistake offact.

         5.      With respect to the Exhibit B Grants, EBC hereby certifies that any funds to be

~aid   to it as listed in the column titled Unreimbursed Expenses Adjusted at 87% represent

reimbursement for funds that have already been expended by EBC and do not include

reimbursement for any costs that have yet to be incurred. EBC further certifies that the funds

relinquished are not connected to any reduction in the scope of any of the projects covered by the



                                                  4

Exhibit B Grants. Finally, EBC certifies that the chart attached hereto as Exhibit B accurately

represents the grants identified in Paragraph 4 above and the amounts EBC will receive in

reimbursement from those grants.

       6.        Defendants shall adhere to the Compliance Plan, attached hereto as Exhibit C,

designed to ensure further that the conduct of Defendants and their employees will comply with

the applicable requirements for recipients of federal grant awards. Defendants will implement

the Compliance Plan within one hundred twenty (120) days of the Effective Date of this

Stipulation and Order.

       7.WNET.ORG did not participate in any ofthe conduct described in the Complaint.

As EBC's parent and sole member, WNET.ORG agrees to be bound by the terms ofthis

Stipulati~n   and Order as it relates to any injunctive relief and prospective relief, including but not

limited to, implementation and adherence to the Compliance Plan, as well as the release,

exceptions to release and default provisions.

       8.         Subject to the exceptions in Paragraphs 11 and 12 below, in consideration of the

obligations of Defendants set forth in this Stipulation and Order, conditioned upon EBC's

payment in full of the Settlement Amount, the United States (on behalf of itself and its agencies,

departments, officers, employees, servants and agents) agrees to release EBC, its predecessors,

successors, parents (including but not limited to WNET.ORG),affiliates, divisions, subsidiaries

and all of its current and former <?fficers, directors, trustees and empioyees (collectively "the

Released Persons and Entities") from any civil or administrative monetary claim the United

States has or may have against the Release~ Persons and Entities for the Covered Conduct under



                                                    5

the False Claims Act, 31 U.S.C. §§ 3729-3733, or under the common law or equitable theories of .

fraud or mistake of fact.

       9. .    ESC, its predecessors, successors, parents (including, but not limited to

WNET.ORG), affiliates, divisions, subsidiaries and all of its current and former officers,

directors, trustees and employees, agree to release the United States and its agencies,


                                                           ..
departments, officers,employees, servants and agents from any claims (including attorneys' fees,

costs and expenses of every kind and however denominated), which EBC has asserted, could

have asserted, or may assert in the future against the United States and its agencies, departments,

officers, employees, servants and agents related to the Covered Conduct, the United States'

investigation and prosecution thereof and this Stipulation and Order.

        10.    This Stipulation and Order is intended to be for the benefit of the parties only, and

by this instrument the, parties to this Stipulation and, Order do not release any claims against any

other person or entity, except as expressly provided by this Stipulation and Order.

        11.    Notwithstanding any term of this Stipulation and Order, including the release·
                        /

provided in Paragraph 8, and the forbearanc,e set forth in Paragraph 4, any and all of the

following are specifically reserved and excluded from the scope and terms of this Stipulation and

Order as to any entity or person:

               a.      any civil,criminal or administrative claims arising under Title 26, U.S.

Code (Internal Revenue Code);

                b.     any criminal liability;

               c.      except as explicitly stated in this Stipulation and Order, any administrative



                                                  6
liability, including suspension or exc1usion from participating in transactions with the United

States;

                .d.·    any liabiJity to the United States (or its agencies) for any conduct other

than the Covered Conduct or the c1aims for reimbursement for such portion of the expenses

previously incurred with respect to the Exhibit B grants as set specifica1Jy forth in Paragraph 4;

                 e.     any c1aims based. upon such obligations as are created by this Stipulation

and Order; and

                 f.     any liability to the United States of any entity or person, including but not

limited to any joint tortfeaser, that or who is not released by the terms of this Stipulation and

Order.

          12.    In the event of a criminal prosecution or administrative action relating to

the Covered Conduct, EBC waives and will not assert any defenses it may have baSed in whole

or in part on a contention that, under the Double Jeopardy Clause in the Fifth Amendment of the

Constitution, or under the Excessive Fines Clause in the Eighth Amendment of the Constitution,

this Stipulation and Order bars a remedy sought in such criminal prosecution or administrative

action. This Stipulation and Order is not punitive in purpose or effect.

          13.    Nothing in this Stipulation and Order constitutes an agreement by the United

States concerning the characterization of the Settlement Amount for purposes of the Internal

Revenue Code, Title 26 of the United States Code.

          14.    Unallowable Costs Defined: All costs (as defined in the Federal Acquisition

Regulation, 48 C.F.R. § 31.205-47) incurred by or on behalf of Defendants, their predecessors,



                                                   7

successors, parents, affiliates, divisions and subsidiaries in connection with the following shall be

Unal10wable Costs with respect to any request for reimbursement, cost report, cost statement,

information statement or payment request submitted by Defendants to the United States or its

designated agent related to Defendants' programs:

                a.      the matters covered by this Stipulation and Order;

                b.      the United States' audit(s) and civil and any criminal investigation(s) of

the matters covered by the Complaint in this action, and this Stipulation and Order;

                c.      Defendants' investigation, audit, defense, and corrective actions

undertaken in response to the United States' audit(s) and civil and any criminal investigation(s)

in connection with the matters covered by the Complaint, and this Stipulation and Order

(including attorneys ' fees);

                d.      the negotiation and. performance of this Stipulation and Order; and

                e.      the payment of the Settlement Amount by EBC to the United States.

                Future Treatment of Unallowable Costs: These Unallowable Costs shall be

separately determined and accounted for by Defendants in nonreimbursable cost centers, and

Defendants will not charge such Unallowable Costs directly or indirectly to any grant or contract

with the United States, or seek payment for such Unallowable Costs through any request for

reimbursement, cost report, cost statement, information statement or payment request submitted

by Defendants to the United States or its designated agent related to Defendants' progmms.

                Treatment of Unallowable Costs Previously Submitted for Payment: Except as set

forth in Paragraphs 4 and 5, Defendants further agree that within sixty (60) days of the effective



                                                  8
                                .

date of this Stipulation and Order, they will identify to' the United States or its designated agent,

if applicable, any Unallowable Costs (as defined in this Paragraph) included in payments

previously s~ught from the United States, including, but not limited to, payments sought in ~y

requests for reimbursement, cost reports, cost statements, infonnation statem~nts or payment
                                                                                               .   ..
requests already submitted by Defendants to the United States or its designated agent, and will

request, and agree, that such requests for reimburse~ent, cost reports, cost stateme~ts,
                                                           -                             .
infonnation statements or payment requests, even if already settled, be adjusted to account for the
                                                       .    :       ,           ;   r


effect of the inclusion of the Unallowable Costs. Defendants agree that the United States will be

entitled to recoup from Defendants any overp~yment asa resuit of the inclusion of such
       ,         '                                         r                ~       '.   ',_

Unallowable Costs on previously~submitted requests for reimbursement, cost reports, cost

statements, infonnation s~tements or payment requests. Any payments due after the adjustments

have been made shall be paid to the United States pursuant to the direction of the Department of

Justice, and/or the affected agencies.
                        •              }                   • A. •       •       ~                  ~

                     The United States reserves its rightsto disagree with any calculations submitted

by Defendants on the effect of inclusion ofUnallo~able Costs (as defined in this Paragraph) on

Defendants' requests for reimbursement, cost reports, cost statements, infonnation statements or

payment requests.

           15.       Nothing in this Stipulation and Order shall constitute a waiver of the rights of the

United States to examine or reexamine the Unallowable Costs described in Paragraph 14.

        16.          EBC expressly warrants that it has reviewed its financial situation and that it
                                           I,

currently is solvent~thin the meaning of 11 U.S.C. §§' 547(b)(3) and 548(a)(I)(A) and (B)(ii)(I),



                                                       9

and will remain solvent following its payment o!the Settlement Amount to the United States

hereunder. Further, the parties expressly warrant that, in evaluating whether to execute this
                             .            .

Stipulation and Order, they (i) have intended that the mutual promises, co,":enants and obligations

set forth herein constitute a contemporaneous exchange for new value given to EBC, within the
                                   t"



meaning of 11 U.S.C. § S47(c)(1); and (ii) have concluded that these mutual promises, covenants

and obligations do, in fact, constitute such a contemporaneous exchange.

        17.    Further, the parties warrant that the mutual promises, covenants and obligations

set forth herein are intended to   ~d   do constitute a reasonably equivalent exchange of value

which is not intended to hinder, delay or defraud any entity to which EBC was or became

indebted on or after the date of this transfer, all within the meaning of II U .S.C. § 548(a)(l).

       18.     Each party to this Stipulation and Order shall bear its own legal and other costs

inc1;UTed in connection with this matter, including costs i~curred in connection with the
                                                                                      ,

preparation and performance of this Stipulation and Order.

       19.     This Stipulation and Order is governed by the laws of the United States. The

parties agree that the exclusivejurisdiction and venue for any dispute arising between the parties
                                                  ",   .
under this Stipulation and Order as it relates to this action will be the United States District Court

for the Southern District of New York.

       20.     This Stipulation and Order constitutes the complete agreement between the

parties. This Stipulation and Order may not be amended except by written consent of the United

States and Defendants.

       21.     Subject to the exceptions in Paragraphs 11 and 12, in consideration of the



                                                       10
 obligations of Defendants in this Stipulation and Order, conditioned upon EB~'s timely full' .

 payment of the Settlement Amount, this action. shall be dismissed with prejudice as to all claims

 the United States has asserted based on the Covered Conduct, and to the extent of, and as

 governed by, this Stipulation and Order. This is provided, however, that the Court shall retain

 jurisdiction over this Stipulation and Order and each party to the extent the obligations herein

. remain unsatisfied by that party.
                  J."   .;.

         22.     The undersigned person(s) signing this Stipulation and Order on behalfofEBC .

 and WNET.ORG, respectively, represent and warrant that helshelthey are authorized by EBC and

 WNET.ORG, respectively, to execute this Stipulation and Order. The undersigned United States

 signatory represents that she is   ~igning   this Stipulation and Order in her official capacity.

         23.     This Stipulation and Order may be executed in counterparts, each of which 


 constitutes an original and all of which constitute one and the same agreement. 


         24.     The effective date of this Stipulation and Order is the date on which this 


 Stipulation and Order is entered by this Court. 





                                                      11 

Dated: New York. New York            PREET BHARARA
       June~ 2010                    United States Attorney for the
                                     Southern District ofNew York
                                     Attorney for United States of America


                            By:      ~~~~
                                     LARA K. ESHKENAZt)~
                                     SARAH E. LIGHT
                                     Assistant U.S. Attorneys
                                     86 Chambers Street - 3rd Floor
                                     New York. New York 10007
                                     Tel. No.: (212) 637-2758, 2774
                                     Fax No.: (212) 637-2702
                                     Email: lara.eshkenazi@usdoj.gov
                                     Email: sarah.1ight@usdoj.gov




                              12 

                                                        .. 

Dated: New York, New Yode                   EDUCATIONAL BROADCASTING
       June ct,2010                         CORPORATION·




Dated: New York, New York                   WNET.ORG
       June ~,2010



                               By:


Dated: New York,
              .... New. York                ARNOLD & PORTER LLP
       June I.> , 2010                      Attorneys forrEBC andWNET.ORG'


                               By:
                    ..                      CRAIG A:STEWART, ESQ.
                                            399 Park A venue
                                            New York, NY 10022 " ,
                                            Tel. No.: (212) 715-1142
                                            Fax No.: (212) 715-1399 ;"
                                            Email: craig.stewart@aporter.com


                                                                               ,
                                                                               .




                                     13 

                                                      EXHIBIT A 


UNITED STATES DISTRlCT COURT
SOUTHERN DISTRlCT OF NEW YORK
------------------------------------,---------::--------.:.X
                                                               ECFCase
UNITED STATES OF AMERlCA,
                                                      ,.       10 Civ. - - ­
                             Plaintiff,

                   v.                                          JUDGMENT

EDUCATIONAL BROADCASTING
CORPORATION and WNET.ORG,


                             Defendants.
-------------------------------------------------------x
         WHEREAS, the United Statesof'America (the "Government") filed its Complaint in this

action on June 15,2010, and defendants Educational Broadcasting Corporation ("EBC") and

WNET.ORG (colleCtively with EBC, "defendants") were duly served with a copy of the

Complaint, and have accepted service thereof;

         WHEREAS, on or, about June 15,2010, the parties hereto entered into a Stipulation and

Order of Settlement and Dismissal (the "Stipulation") resolving all ofthe claims alleged in the

Government's Complaint against the defendants, and presented such Stipulation to the Court;

        , WHEREAS, on or about June _,2010, this Court signed the Stipulation and;

          WHEREAS, EBC has failed to pay the Settlement Amount, as defined in the Stipulation,

within three (3) business days of the date of entry of the Stipulation, as required,accordingly, it is

so ordered;
        NOW, THEREFORE, it is hereby ORDERED AND ADJUDGED as follows:

           1.   The United States shall have judgment against the defendant EBC in the sum of

nine hundred fifty thousand dollars ($950,000), to be paid in accordance with the terms of the

Stipulation, and the United States shall have execution therefor.

        2.      The above-captioned action is dismissed with prejudice, without costs or fees to

either party.


Dated: 	        New York, New York
                _ _ _ _ _,,2010




                                              CLERK OF COURT
                                                                                    Exhibit B



EDUCATIONAL BROADCASTING CORPORATION
SCHEDULE OF FEDERAL AWARDS                                                                                                              AWARD FUNDS
                                                                                                       UNREIMBURSED
                                                                        ADJ         UNREIMBURSED         EXPENSES                       AVAILABLE FOR
                                           ORIGINAL        ADJ
                                                                                      EXPENSES        ADJUSTED @ B7%     AMOUNT TO BE    SUBSE~UENT
                    NEA                     GRANT         GRANT        GRANT
                                                                                      INCURRED     (FUNDS TO BE DRAWN)   DEOBUGATED       EXPENSES
                  PROJECT                  AMOUNT        AMOUNT       BALANCE


       Great Performances 37 (09t10)         $565,000      $565,000     $565,000       $283,000           $246,210          $36,790        $282,000
       08-3448-7107

  2    Great Performances 36 (08109)          $525,000     $525,000     $525,000       $462,000           $401,940          560,060         $63,000
       07-3448-7152

  3    Great Performances 35 (07t08)         $525,000      $483,000     5116,296       5116,296           $101,178          515,118              50
       08-3448-7120

  4    American Masters 20 (06t07)           1625,000      $625,000     1217,097       1217,097           $188,874          $28,223              $0
       05-3448-7128

  5    American Masters 21 (07tOS)           $525,000     $437,483      $335,452       5335,451          $291,842           $43,609              10
       08-3448-7130

  6    American Maslers 22 (08109)           $525,000     $409,500      $409,500       5380,835           1331,326          $49,509         528,665
       07-3448-7115

  7    Music Instinct                         $80,000      $80.000       $80,000        164,800           $56,376            18,424         115,200
       04-3448-4154

  8    Make 'em Laugh                        $140,000     1140,000      1140,000       1140,000          5121,800           518,200        .     50
       08-3448-7119

  9    Paris: The Luminous Years              $45,000      $45,000       $45,000        527,450           523,882            $3,569         $17,550
       08-3448-7113

                               sub-Iolal    53,555,000   $3,309,983    $2,433,345     52,026,929         51,763,428        '5263,501       $406,416




                                                                                                                                               P"Il" 1
                                                                                    ExhlbitB



EDUCAnONAl. BROADCASnNG CORPORAnoN
SCHEDUl.E OF FEDERAl. AWARDS
                                                                                                       UNREIMBURSED                     AWARD FUNDS
                                          ORIGINAL        ADJ           ADJ         UNREIMBURSED         EXPENSES                       AVAILABLE FOR
                   NEH                     GRANT         GRANT         GRANT          EXPENSES        ADJUSTED @ 87%     AMOUNT TO BE    SUBSEQUENT
                 PROJECT                  AMOUNT        AMOUNT        BALANCE         INCURRED     (FUNDS TO BE DRAWN)   DEOBLIGATED      EXPENSES


 10    Parts: The Luminous Years            $800,000      $800,000      $800,000       $488,000          ·1:424.560         $63,440        $312,000
       n·5C071-07 .

 11    Harlem In Monlmarte                  $800,000      $800.000      $800,000       $744,000          $647,280           $96,720         $56,000
       GN-50579-05

 12    Picturing America                     $30,000       $15,000       $15,000       $15,000            $13,050            $1,950           $0
       TR·50028-0B

 13    Pidut1ng America                     $700,000      $700,000      $700,000       $70,000            $60,900            $9,100        $630,000
       TR-5C029-09

                              sub-total    $2,330,000    $2,315,000    $2,315,000     $1,317,000        $1,145,790          $171,211i      $998,000




                                                                                                                                            PU9" 2
                                                                                      ExhlbitB



EDUCAnONALBROADCASnNGCORPORA~N
SCHEDULE OF FEDERAL AWARDS
                                                                                                        UNREIMBURSED                      AWARD FUNDS
                                         ORIGINAL         ADJ            ADJ          UNREIMBURSED         EXPENSES                       AVAILABLE FOR
                        NSF               GRANT          GRANT          GRANT           EXPENSES        ADJUSTED @ 87""    AMOUNT TO BE    SUBSEQUENT
                  PROJECT                AMOUNT         AMOUNT         BALANCE          INCURRED     (FUNDS TO BE DRAWN)   DEOBLIGATED      EXPENSES


 14    Cyberchase Series - 6               51,500,000     51,455,000       5275,678      5275,678          $239,840            $35,838          $0
       DRL-0638962

 15    Cyberchase Series - 7               $1,720,000     51.720.000     51,720,000     51,720,000         51,496.400         5223,600          $0
       DRL4J741683




 16    Children'~ learning                51.321,266      51,289,208     51,066.786      5853,429          5142,483           5110.946       5213,357
       DRL..a723829

 17    Human Spark                        51.300,000      51.300,000     51,096,241      5564,993          $491.544           $73,449        5531.248
       ESI.0515489

 18    Music Instinct                     51,296,318      51.296,318     $1,296,318     51,050,018         5913,516           5136,502       $246;300
       DRL·()917652

                               suMotal    $7,137,584     $7,060,526     $5,455.023      $4,464,118        $3,883,783          5580,335       $990.905


                                 Total   $13,022.564    $12.685.509    510,203.368      $7,808.047        $8,793,001         $1.015,046     $2,395,321




                                                                                                                                              Page 3
                                                  EXHIBITC 


                                              Compliance Plan 



I.     Preamble
          1.     T~e Educatio~al Broadcasting Corporation, its predecessors, suc~essors, parents
(including, but not limited to, WNET.ORG), affiliates, divisions, and subsidiaries (collectively,
 "EBC") agree, as a terrrt of its a~ched Settlement Agreement with the United States to which
 this is incorporated by reference, to implement a Compliance Program to censure compliance with
 the terms and conditions appli~ble to any National Science Foundation ("NSF"), National
 Endowment for' the Humanities' ("NEH"), and National Endowment fQr the Arts ("NEA")
 awards; to ensure compliance with all relevant laws, regulations, and conditions governing NSF,
 NEH and NEA awards ("Covered Awards"), as now or hereafter amended; and to demonstrate
 EBC's commitment to the prevention of fraud, false statements, and misuse of funds related to
 Covered A wards by EBC, its officers, and relevant employees. The Compliance Program shall
 be based upon an assessment of the pot~ntial for such unlawful activities, have adequate
 financial and human resources, and be maintained so as to ensure that EBC and each of its
cofficers, and 	 relevant employees maintain the integrity required of a recipient of Covered
 Awards.                                                           .'

       2.      Relevant employees are Principal Investigators' ("PIs"), co-PIs, independent
contractors. sub-recipients, Project Directors. Institutional Grant Administrators, and any other
person who is responsible for the design, conduct, administration, or other activity funded or
supported by Covered Awards.
              ~	                 ~,   ",' -:t".

        3.      Covered Awards herein mean any cOQperative agreement, grant, contract, sub­
 contract or other instrument whereby EBC receives NSF, NEH and NEA funds.

 II.    Requirements

        4.     The period of future compliance obligations assumed by EBC under the
 Compliance Plan will commence on the date the final signatory executes the Settlement
 Agreement to which this Compliance Plan is attached and incorporated (the "Effective Date")
 and will be complete after receipt and written approval of the fifth (5th) and final annual report.

        5.     . The scope of the Compliance Plan shall be limited to any NSF; NEH and NEA-
 funded activities taking place during the term of this, Compliance Plan and NSF, NEH and NEA
 funds awarded or disbursed during the compliance period. NSF Office of Inspector General
 ("OIG"), NEH OIG, and NEA OIG (hereafter, "Covered OIGs") shall monitor compliance with
 the requirements of this Compliance Plan as it pertains to Covered Awards.

         6.    ' All reports and notifications required under this Compliance Plan shall be sent
 electronically to the NSF OIG Associate·~Inspector General for Investigations, via email to
 oig@nsf.gov, and NSF OIG will distribute to the Covered OIGs.
       A. 	     Compliance
       7.     . EBC agrees to implement the following measures within one hundred twenty
(120) days of the Effective Date, unless otherwise specified below:

                i. Compliance Program

         8.      The Compliance Program shall identify all EBC employees who are working on
 Covered Awards. Each of those employees' roles and responsibilities shall be described so that
 their relationship to I;.BC's responsibilities under Covered Awards is clear. The lines of
  responsibility shall be clearly established from each individual position up to and including
  EBC's responsible signatory officials. All individuals in such positions will be provided with (or
. have electronic access to) written policies and/or procedures applicable to their positi~ns for: .

               (a) 	    a code of conduct holding EBC· personnel to high ethical standards of
                        professional conduct and integrity. including addressing conflicts of
                        interests;

               (b) 	    accurate time and eff()rt reporting;

               (c) 	    accurate charging of costs;

               (d) 	    accurate monitoring, managing, and reporting of cost sharing (which shall
                        mean costs as shared among funders, including the Covered Agencies, but
                        not limited to them);

               (e) 	    accurate monitoring of sub-recipients and consultants, and sub-recipient
                        and cons"!ltant charges;

                (f) 	   accurate reconciliation of accounting records; and

                (g) 	   document management and retention.

 Individuals 'in such positions are responsible for the effective implementation 'of the
 aforementioned policies and procedures.

              ii. Compliance Officer

          9.     After appropriate screening, EBC shall· appoint a senior level administrator to
  serve as the Compliance Officer for the Compliance Program. The Compliance Officer shall be
  responsible for Compliance Program operations including, where appropriate, review of awards,
  development of training programs, and submission of comprehensive written annual reports to
  NSF OIG on the status of compliance under the Compliance Program. The Compliance Officer
  shall monitor EBC's internal controls to ensure compliance with all applicable federal laws,
  regulations, and conditions regarding the use and expenditure of funds under Covered Awards.

                                                      2
                                                             , .
              iii. Compliance Committee '

          10.    The Compliance Officer shall chair a' Compliance Committee that shan be
 responsible for ensuring implementation of .the Compliance Program throughout EBC. In
 ad(jition to the Compliance Officer, the members of the Compliance Committee shall include
 appropriately screened officers. ,

               iv. Written Policies

          11.    Within one hundred twenty (120) days of the Effective Date, EBC shall
  implement written policies regarding its commitment to ensure compliance with all laws,
  regulations, and conditions related to the receipt of Covered Awards. These policies shall be
  adopted by EBC and distributed to all EBC officers and relevant employees. Copies of EBC's
  written policies will be provided to NSF OIG within thirty (30) days of implementation. They
. shall be included as part of the annual training, and any policies modified during the tenn ofthe
  Compliance Plan shall be included as part of the annual report sent to NSF OIG. Such policies
  shall be updated to reflect any changes in EBC's policies or practices. EBC's compliance
  policies shall include disciplinary procedures for dealing with employees who fail to comply
  with the policies.

               v. Posting and Displaying Fraud Hotline Posters

         12.       During the period   o~the    Compliance Plan, EBC shall:

                 (a) Prominently display the fraud hotline posters from Covered OIGs in common
                 work areas in which EBC personnel are perfonning work u!1der any Covered
                 Awards;

                  (b) Post on its website an electronic version of these fraud hotJine posters in a
                  manner'easily accessible to EBC's relevant employees; and

                  (c) Request that any subcontractor working on Covered Awards post these fraud
                  hot line posters in its common areas.

         B.        Injunctive Relief

          13.   The individual who served as EBC's 'Director, . Contract Management and
  Financial Control, prior to the adoption of this Compliance Plan is no longer employed by EBC
  and neither EBC nor any of EBC's affiliates shall re-hire such individual in any capacity in the
  future.

         C.        Audit ~equirements ..   '.
           14.    In addition to the audit requirements contained in OMB Circular A-133, EBC
  shall engage a qualified extemal audit finn to conduct, on an annual basis, a comprehensive,
  statistically valid, independent audit of EBC's compliance with this agreement as well as all

                                                        3
applicable federal laws, regulations, and conditions regarding the use and expenditure of funds
under Covered Awards ("Independent Compliance Audit" or the "Audit"). This Independent
Compliance Audit shall include each component of EBC that receives or has oversight
responsibility with respect to Covered Awards and shall be conducted in accordance with
Generally Accepted Auditing Standards with a statistically-valid sample. Special attention shall
be devoted to risk assessment and internal controls designed to ensure compliance with NSF,
NEH, and NEA requirements, including the certifications made on applications, progress reports,
financial reports, and other reports related to Covered Awards. The Audit will also assess the
efficacy ofEBC's compliance program as to whether:

       (a) 	 EBC has established compliance standards and procedures to prevent and
             detect violations of law;

       (b) 	 EBC's leadership is knowledgeable about such standards and procedures
             ancf whether a· high'. level person is· assigned     or
                                                                retained to have
             responsibility to ensure the implementation and effectiveness of the
             standards and procedures;

       (c) 	 EBC has made reasonable efforts to exclude from substantial authority any
             individual who EBC knew or should have known through exercise of due
             diligence, has a history of engaging in violations of law or other conduct
             inconsistent with an effective program to prevent and detect violations of
             law;

        (d) 	 EBC has made reasonable steps to communicate its compliance standards
             and procedures to relevant employees through effective training programs
             and other means of disseminating infonnation appropriate to such
             individuals' respective roles and responsibilities;

        (e) 	 EBC took reasonable steps to ensure that its program to prevent and detect
             violations of law is followed, to evaluate the effectiveness of the
             compliance standards and procedures, and to provide a system whereby
             EBC's employees and agents may report or seek guidance regarding
             potential or actual violations of law without fear of retaliation, including
             mechanisms that allow for anonymous reporting;

        (f) 	 EBC's program to prevent and detect violations of law was enforced
              consistently through appropriate incentives and as necessary disciplinary
              measures for employees engaging in violations of law or failing to take
              reasonable steps to prevent or detec! violations of law; and

        (g) 	 EBC has taken reasonable steps, when a violation of law was detected, to
              respond appropriately and to prevent future violations of law, including
              making any necessary changes to the program for preventing and detecting
              violations of law.


                                                4
       15.     EBC shall provide the first annual report of the Independent Compliance Audit
twelve (12) months after the implementation of the Compliance Program specified in paragraphs
7 and 8 above. EBC shall provide all subsequent annual reports of Independent Compliance
Audits on the anniversary of the first annual report.

        16.     EBC shall provide a working copy of the audit plan to NSF OIG thirty (30) days
prior to the initiation of the Independent Compliance Audit. The audit plan will be designed to
(1) ensure compliance with the terms and conditions applicable to any Covered Awards, and
(2) assess the efficacy of the Compliance Program as outlined above. The Covered OlGs will
have the right to require additional procedures if they determine, within ten (10) working days
after receiving the advance working copy of the audit plan, that it lacks sufficient detail to ensure
accomplishment of (1) and (2) above. EBC shall submit to NSF OIG a copy of the independent
auditor's written report and findings as a supplement ,to the annual written reports required
elsewhere in the Compliance Plan. EBC corisents to the right of inspection by the Covered OlGs
of any final reports or work papers reSUlting from the Independent Compliance Audit as
described above.

        17.     Any and all reviews conducted at EBC,which reveal situations that might
constitute or indicate noncompliance with NSF, NEH, and/or NEA requirements, are to be timely
disclosed to the individual conducting the annual internal audit and the Compliance Officer.

        D.      Annual Written Reports .

         18.    EBC shall annually provide NSF OIG with a written report identifying
 deficiencies discovered by the Independent Compliance Audit '(described above) or any other
 audit or review, and the corrective actions EBC has undertaken to address such deficiencies.
 Such reports shall be due one (1) year after the implementation of the written procedures referred
 to in paragraphs 7 and 8 above, and on the same date for each of the four (4) years thereafter.
 These reports shall include a certification by the Compliance Officer that all deficiencies have
 been addressed to ensure EBC's compliance with all requirements of federal law, regulations,
 conditions, and the Compliance Plan.

       19.      All work papers for the Independent Compliance Audit and other supporting
 documents for audits or reviews of compliance with the Compliance Plan shall be retained by
 EBC for eight (8) years after the Effective Date and shall be made available to Covered OIGs
 upon written request.           -                         .

        20.     A "material" violation or weakness is one that has a significant adverse 'impact on
 the administrative, financial, or programmatic aspects of Covered Awards. EBC shall:

         (a) Promptly report to NSF OIG every material violation or weakness discovered during
             any audit or review, remedy the material violation or weakness within thirty (30) days
             of learning of it, and provide to NSF OIG a written summary of the actions that were
             taken to correct it; or



                                                  5
        (b) If EBC is unable to remedy the material violation or weakness within thirty (30) days,
            EBC shall so infonn NSF OIG immediately. provide regular status reports thereafter
            until the material violation or weakness is cured, and provide to NS:f OIG a written
            summary of the actions that are being taken to correct it.

        E.     Training

         21.    EBC shall institute and maintain a comprehensive training program designed to
ensure that each officer and employee working on any Covered Awardsis aware orall applicable
laws, regulations, and standards of conduct that such individual is expected to follow with regard
to Covered Awards, and the consequences both to the individual and EBC that will ensue from
any violation of such requirements. Each officer and relevant employee shall receive at least two
(2) hours of initial training that shall include a discussion of the contents of the Compliance Plan
as well as the relevant award requirements, and shall receive additional compliance training of at
 least two (2) hours on an annual basis. A schedule and topic outline of the training shall be
 included in the annual report. A certificate shall be placed in the personnel file of each such
officer and employee upon completing the training, stating the date, topic, and hours of training
 received.

        F.      Confidential Disclosure Compliance Program

        22.    To the extent permitted by the laws of the State of New York, EBC shall establish
a confidential disclosure mechanism enabling EBC and relevant employees to disclose
anonymously to the Compliance Officer any practices, procedures, or acts related to Covered
Awards deemed by the employee to be inappropriate. ESC shall make the confidential
disclosure mechanism known to each officer and employee who is working on any Covered
Awards as part of the training described above. ESC shall require the internal review of all such
credible disclosures and ensure that proper follow-up is conducted. EBC shall include in its
annual report to the Covered OIGs of the Independent Compliance Audit a summary of
communications received under the confidential disclosure program, and the results of the
internal review and follow-up of such disclosures.

 III.    Inspection, Audit, and Review Rights

         23.    In addition to any other right that Covered OIGs have pursuant to applicable
 award conditions or other authority, they may examine and copy ESC's records for the purpose
 of verifying and evaluating: (a) EBC's compliance with the terms of the Compliance Plan; and
 (b) ESC's compliance with any NSF, NEH, and NEA requirements. ESC shall make the records
 available at any reasonable time for inspection, audit, and/or reproduction. Furthermore, for
 purposes of this provision, Covered OIGs may interview any ESC employee at the employee's
 place of business during normal business hours or at such other place and time as may be
 mutually agreed upon.

         24. . In the event that any of the Covered OIGs believes ESC has breached any of its
 obligations under the Compliance Plan, NSF OIG shall notify the Compliance Officer of the
 alleged breach electronically or by other appropriate means, specifying the nature and extent of

                                                  6
the alleged breach. EBC will have thirty (30) days from receipt of the notice to: (a) cure said
breach; or (b) otherwise satisfy the Covered OIGs that (I) it is.in fun compliance with the
Compliance Plan or (2) the breach cannot be reasonably cured within thirty (30) days, but EBC
has taken effective action to cure the breach and is pursuing such action with diligence.

 .      25.    If, at the end of the time period described in paragraph 24, the Covered OIGs
dete~ine that EBC continues to be in breach of any of its obligations under the Compliance
Plan, NSF OIG shall inform the Compliance Officer of the conclusion that EBC is in default.
The Covered OIGs may also take one or both of the following actions: (1) refer the matter to
their respective agencies to initiate proceedings to undertake appropriate administrative action,
including but not limited to the suspension or termination of any or all NSF, NEH, and NEA
awards and/or suspension or debarment of EB C; and/or (2) refer the matter to the United States
Attorney's Office for civil enforcement, pursuant to the terms of the Settlement Agreement.

        26.     Should any action to enforce or interpret the Compliance Plan or to resolve any
dispute hereunder be required, the Parties acknowledge the jurisdiction of the federal courts. The
parties agree that, absent a breach of the Corrtpliance Plan and/or the Settlement Agreement to
which it is attached and incorporated by reference, the execution of the Settlement Agreement
shall be final as to all matters aHeged in the Settlement Agreement.

IV.    Costs

      27.    EBC shall bear its own costs, expenses, and fees in relation to implementation of
the Compliance Plan.

        28.     As set forth in paragraph 14 of' the Stipulation and Order, all costs, whether direct
or indirect, incurred by or on behalf of EBC . in connection with the following are unallowable
costs (hereafter, "Unallowable Costs") under the cost principles applicable to government awards
(2 C.F .R. Parts 215 and 230): (1) the implementation ofthe matters covered by this Compliance
Plan; (2) the negotiation of this Compliance Plan and the Stipulation and Order (including
attorney's fees); and (3) any payments made pursuant to the Stipulation and Order. These
Unallowable Costs shall be separately estimated and accounted for by EBC and EBC shall not
charge such Unallowable Costs directly or indirectly to any federal awards.        .

        29.    Notwithstanding the foregoing, EBC may be permitted to ch!irge certain
 allowable costs associated with the administration of the Compliance Plan as "Indirect Costs,"
 pursuant to 2 C.F.R. Part 230, Appendix A, in conjunction with a Federally approved Indirect
 Cost Rate.

 V.     Modification

      30.     Any modification to the Compliance Plan shall not be effective until a written
 amendment is signed by representatives duly authorized to execute such amendment.




                                                   7
VI.    Integration Clause
        31.     This Compliance Plan and the Stipulation and Order to which it is attached and
incorporated by reference embody the entire Stipulation and Order and understanding of the
Parties with respect to the subject matter contained herein. There are no restrictions. promises,
representations, warranties,covenants, or undertakings other than those expressly set forth or
referred to in the Compliance Plan and the Stipulation and Order. The Compliance Plan and the
attached Stipulation and Orde~ to which it is incorporated by reference, supersedes any and an
prior Stipulation and Order and understandings between the Parties with respect to this subject
matter.

                                                                               ,   '




                                                 8

